               AUDIT OF THE

ST. CHARLES COUNTY SHERIFF'S DEPARTMENT’S

  EQUITABLE SHARING PROGRAM ACTIVITIES

            O’FALLON, MISSOURI



         U.S. Department of Justice

       Office of the Inspector General

                Audit Division



        Audit Report GR-50-12-004

                April 2012

                          AUDIT OF THE

           ST. CHARLES COUNTY SHERIFF'S DEPARTMENT’S

             EQUITABLE SHARING PROGRAM ACTIVITIES

                       O’FALLON, MISSOURI


                             EXECUTIVE SUMMARY


      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the St. Charles County, Missouri, Sheriff’s Department (Sheriff’s
Department). Equitable sharing revenues represent a share of the proceeds
from the forfeiture of assets seized in the course of certain criminal
investigations. 1 During the period of January 1, 2010, through
December 31, 2010, the St. Charles County Sheriff’s Department was
awarded $1,671,647 in DOJ equitable sharing revenues to support law
enforcement operations.

       The objectives of the audit were to assess whether equitably shared
cash and property received by the St. Charles County Sheriff’s Department
were accounted for properly and used for allowable purposes as defined by
the applicable regulations and guidelines. We found that the Sheriff’s
Department complied with equitable sharing guidelines with respect to
accounting for equitable sharing revenues and adhering to supplanting
requirements. However, we identified deficiencies in the Sheriff’s
Department’s completion of its Equitable Sharing Agreement and
Certification form, the maintenance of its DAG-71 log, and its use of
equitable sharing funds. 2 Specifically, we found:

       •	 The Sheriff’s Department miscalculated and misreported interest
          earned on equitable sharing funds on its fiscal year (FY) 2010
          Equitable Sharing Agreement and Certification form. Additionally,
          the Sheriff’s Department misreported a uniform allowance as
          overtime pay on the form.

       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
       2
         The Form DAG-71, Application for Transfer of Federally Forfeited Property
(DAG-71), is the DOJ form submitted by a state or local agency to the federal seizing
agency to request a share of seized assets. The state or local agency is required to
maintain a log of its DAG-71s in accordance with equitable sharing guidelines.
           DRAFT AUDIT REPORT – LIMITED OFFICIAL USE




     •	 The DAG-71 log did not have a consecutive numbering system, and
        the file did not reconcile each DAG-71 with the amount and date
        the receipts were received, as required by equitable sharing
        guidelines.

     •	 The Sheriff’s Department used equitable sharing funds for
        additional uniform allowances totaling $52,500, and these
        expenditures were not adequately supported.

     •	 Equitable sharing funds were used to provide Sheriff's Department
        employees with an unallowable retroactive uniform allowance of
        $141,100.

      In total, we identified $141,000 in unallowable costs and $52,500 in
unsupported costs related to the St. Charles County Sheriff’s Department’s
management of equitable sharing funds. Our report contains five
recommendations to address the weaknesses we identified. Our findings are
discussed in detail in the Findings and Recommendations section of the
report. The audit objectives, scope, and methodology appear in Appendix I.




                                   - ii ­
                                 TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1


Background .........................................................................................1


St. Charles County Sheriff's Department..................................................2


OIG Audit Approach ..............................................................................2


FINDINGS AND RECOMMENDATIONS................................................ 4


Equitable Sharing Agreement and Certification Report...............................4


Accounting for Equitable Sharing Receipts ...............................................5


DAG-71s .............................................................................................6


Use of Equitable Sharing Funds ..............................................................6


Supplanting .........................................................................................8


Views of Responsible Officials.................................................................8


Recommendations ................................................................................9


APPENDIX I - OBJECTIVES, SCOPE, AND METHODOLOGY ............... 10


APPENDIX II - SCHEDULE OF DOLLAR-RELATED FINDINGS............ 12


APPENDIX III - AUDITEE RESPONSE .............................................. 13


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL

              ANALYSIS AND ACTIONS NECESSARY
              TO RESOLVE THE REPORT ....................................... 16

                            INTRODUCTION

      The U.S. Department of Justice (DOJ), Office of the Inspector General,
Audit Division, has completed an audit of the use of DOJ equitable sharing
revenues by the St. Charles County, Missouri, Sheriff’s Department (Sheriff’s
Department). The audit covered the Sheriff’s Department’s fiscal year
(FY) 2010, beginning on January 1, 2010, and ending on December 31,
2010. During that period, the Sheriff’s Department received DOJ equitable
sharing revenues totaling $1,671,647 to support law enforcement
operations.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines.

Background

      The primary mission of the DOJ Asset Forfeiture Equitable Sharing
Program is to employ asset forfeiture powers in a manner that enhances
public safety and security. This is accomplished by removing the proceeds
of crime and other assets relied upon by criminals and their associates to
perpetuate their criminal activity against our society. Asset forfeiture has
the power to disrupt or dismantle criminal organizations that would continue
to function if we only convicted and incarcerated specific individuals.

       Another purpose of the DOJ Asset Forfeiture Program is to deter crime
by depriving criminals of the profit and proceeds from illegal activities. A
secondary purpose of the program is to enhance cooperation among federal,
state, and local law enforcement agencies by sharing federal forfeiture
proceeds through the DOJ equitable sharing program. State and local law
enforcement agencies may receive equitable sharing revenues by
participating directly with DOJ agencies in joint investigations leading to the
seizure or forfeiture of property. The amount shared with the state and local
law enforcement agencies in joint investigations is based on the degree of
the agencies’ direct participation in the case. The U.S. Department of the
Treasury administers its own Asset Forfeiture Program. Our audit was
limited to equitable sharing revenues received through the DOJ equitable
sharing program.

      Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing
governing legislation, and monitoring the use of DOJ equitable sharing
funds. Generally, the use of equitable sharing revenues by state and local
recipient agencies is limited to law enforcement purposes. However, under
certain circumstances, up to 15 percent of equitable sharing revenues may
be used for the costs associated with drug abuse treatment, drug and crime
prevention education, housing and job skills programs, or other nonprofit
community-based programs or activities. This provision requires that all
expenditures be made by the law enforcement agency and does not allow for
the transfer of cash.

St. Charles County Sheriff's Department

      St. Charles County, Missouri, which is located in the eastern part of
the state in the St. Louis metropolitan area, had an approximate population
of 360,485 in 2010. The Sheriff's Department is part of the St. Charles
County government and is located in O’Fallon, Missouri, the largest
municipality in St. Charles County. The Sheriff’s Department’s law
enforcement budget was $17,826,023 in FY 2010.

      The St. Charles County Finance Department administers and
coordinates financial services for all St. Charles County government offices,
including the Sheriff's Department. The Sheriff's Department submits all
expenditure requests greater than $500 to the County for approval.
Depending on the requested amount, the St. Charles County government
has several layers of approval. Even though the County approves all
expenditures, the Sheriff is still in charge of approving all expenditures that
are paid from equitable sharing funds. Both the County Executive and the
Sheriff sign the Equitable Sharing Agreement and Certification form.

OIG Audit Approach

      We tested compliance with what we considered to be the most
important conditions of the DOJ equitable sharing program. Unless
otherwise stated, we applied the Guide to Equitable Sharing for State and
Local Law Enforcement Agencies, dated April 2009 (Equitable Sharing
Guide), as our primary criteria. The Equitable Sharing Guide identifies the
accounting procedures and requirements for tracking equitably shared
monies and tangible property, establishes reporting and audit requirements,
and defines the permissible uses of equitably shared resources.

      To conduct the audit, we tested the Sheriff’s Department’s compliance
with the following three aspects of the DOJ equitable sharing program:




                                      -2­
     •	 Accounting for equitably shared resources to determine
        whether standard accounting procedures were used to track
        equitable sharing assets.

     •	 Annual Equitable Sharing Agreements and Certification
        Forms to determine if these documents were complete and
        accurate.

     •	 Use of equitably shared resources to determine if equitable
        sharing funds were spent for permissible uses.

     See the Appendix I for more information on our objectives, scope and
methodology.




                                   -3­
              FINDINGS AND RECOMMENDATIONS

     We found that the St. Charles County Sheriff’s Department
     improperly used equitable sharing funds to award its employees
     a total of $197,500 in uniform allowance. Additionally, the
     Sheriff’s Department misreported on its FY 2010 Equitable
     Sharing Certification and Agreement form: (1) the uniform
     allowance as overtime pay, and (2) the interest it earned on
     equitable sharing funds in FY 2010. The Sheriff’s Department
     also failed to maintain its DAG-71 log in accordance with
     equitable sharing guidelines.

Equitable Sharing Agreement and Certification Report

       The AFMLS requires that any state or local law enforcement agency
that receives forfeited cash, property, or proceeds as a result of a federal
forfeiture submit an Equitable Sharing Agreement and Certification Report
(Certification Report). The submission of this form is a prerequisite to the
approval of any equitable sharing request. Noncompliance may result in the
denial of the agency’s sharing request.

       The Certification Report must be submitted every year within 60 days
after the end of the agency’s fiscal year regardless of whether funds were
received or maintained during the fiscal year. It must be signed by the head
of the law enforcement agency and a designated official of the local
governing body. By signing the report, the signatories agree to be bound by
the statutes and guidelines that regulate the equitable sharing program and
certify that the law enforcement agency will comply with these guidelines
and statutes.

      We tested compliance with the Certification Report requirements to
determine if the required report for FY 2010 was submitted timely,
accurately, completely, and was signed by the appropriate officials. To
assess the accuracy of the Certification Report, we reconciled the total
receipts and expenditures reported in FY 2010 to the St. Charles County
general ledger and other documents used by St. Charles County Sheriff's
Department personnel to prepare the report. We determined that the report
for FY 2010 was completed, signed, and submitted in a timely manner.
However, we identified two errors on the FY 2010 report. Specifically, the
amount of interest income reported on the report was incorrect, and a
uniform allowance was incorrectly reported on the report as an overtime
expense.




                                    -4­
      According to the fiscal manager, in 2008 St. Charles County adopted a
new accounting system that it has been gradually phasing in. The fiscal
manager stated that he did not know how to calculate the interest income
within the new accounting system. Instead, he derived the interest earned
by adding the FY 2010 equitable sharing fund receipts to the equitable
sharing fund beginning balance and then subtracting the FY 2010
expenditures. He then subtracted this amount from the FY 2010 year-end
balance and surmised that the difference must be due to interest income
earned for the year.

      When we reviewed the accounting records, we found that the fiscal
manager had incorrectly calculated and misreported the interest earned on
equitable sharing funds. We pointed out this error to the fiscal manager,
and he agreed with our finding. He stated that he has since learned how to
correctly calculate the interest earned using the new accounting software.

      According to equitable sharing guidelines, both the Sheriff and the
County Executive need to sign the Certification Report. After the fiscal
manager prepares the report, he submits it to the St. Charles County
Finance Department for review. Despite this second layer of review, the
Finance Department failed to notice that the interest earned listed on the
report was incorrect and that the uniform allowance was improperly reported
as overtime expense. We recommend that the St. Charles County Sheriff’s
Department submit a corrected Certification Report for FY 2010 to remedy
these inaccuracies.

Accounting for Equitable Sharing Receipts

       The Guide to Equitable Sharing for State and Local Law Enforcement
Agencies, dated April 2009 (Equitable Sharing Guide), requires that all
participating state and local law enforcement agencies implement standard
accounting procedures to track equitably shared revenues and property.
Additionally, DOJ equitable sharing funds must be accounted for separately
from any other funds. We reviewed the Sheriff’s Department’s procedures
for reconciling equitable sharing requests against sharing receipts, reconciled
the agency’s accounting records to DOJ records of equitable sharing funds
shared with the agency, and reviewed equitable sharing receipts to
determine if the funds were properly accounted for and deposited.

      We determined that during FY 2010 the Sheriff’s Department had
71 receipts of equitable sharing funds totaling $1,671,647. We reviewed all
71 receipts, and we found that the Sheriff’s Department accurately
accounted for all equitably shared revenues received during FY 2010.



                                     -5­
DAG-71s

      According to the Equitable Sharing Guide, the agency that submits the
DAG-71 forms should maintain a log and copies of all DAG-71s. 3 A
consecutive numbering system should be used for control purposes, and the
log should contain the date and the amount received. We found that the
Sheriff’s Department had not numbered the entries in its DAG-71 log nor
had it reconciled its equitable sharing requests with its receipts. When we
brought these issues with the log to the attention of the St. Charles County
Counselor – who maintains the DAG-71 log – she said that going forward
she would reconcile the log and follow the required procedures for
maintaining the log. We recommend that the St. Charles County Sheriff’s
Department establish procedures to ensure that the DAG-71 log is
maintained as required.

Use of Equitable Sharing Funds

      Generally, the Equitable Sharing Guide requires that the use of
equitable sharing funds received by state and local agencies be limited to
law enforcement purposes. During FY 2010, the St. Charles County Sheriff’s
Department expended $1,661,241 in DOJ equitable sharing funds. We
judgmentally selected and tested 17 transactions, totaling $1,116,063, to
determine if the expenditures of DOJ equitable sharing funds were allowable
and supported by adequate documentation. We determined that all but one
of the expenditures were allowable, adequately supported, and in
accordance with the guidelines.

      The Sheriff's Department listed on its Certification Report an overtime
expense of $197,500. When we questioned St. Charles County officials
regarding this expense, they said that they had incorrectly recorded this
amount as overtime on the Certification Report. Instead, the County
awarded the Sheriff's Department a one-time increase in uniform allowance
of $288,100 and offset part of the uniform allowance by $197,500 with
equitable sharing funds.

      According to the County Executive, in 2010 County officials determined
that the uniform allowance given to the Sheriff's Department’s law
enforcement personnel was not sufficient. The Assistant Director of Finance
explained that County officials interviewed deputies, concluded that the
deputies spent more on uniforms than the normal $630 yearly allotment,


       3
         The Form DAG-71, Application for Transfer of Federally Forfeited Property
(DAG-71), is the DOJ form submitted by a state or local agency to the federal seizing
agency to request a share of seized assets.


                                           -6­
and agreed to give them a one-time increase. Additionally, the County
officials and the Sheriff agreed to offset part of the increase with equitable
sharing funds.

      After conducting several interviews, the County decided to provide
every Sheriff’s Department law enforcement officer a one-time increase of
$350 as well as an additional retroactive payment of $100 to each officer for
every year of service. For some officers the retroactive pay went back as far
as 1973. The total retroactive allowance amount for FY 2010 was $141,100.
The County calculated the total uniform allowance compensation for that
year to be $288,100, and the St. Charles Sheriff's Department used
$197,500 in equitable sharing funds toward this expense.

               ST. CHARLES COUNTY UNIFORM ALLOWANCE

                           FISCAL YEAR 2010

                                                                      EXPENDITURES PAID
                                               EXPENDITURES PAID          FROM EQUITABLE
    EXPENDITURE       TOTAL EXPENDITURES    FROM THE GENERAL FUND         SHARING FUNDS
Unsupported Normal
   Yearly Uniform            $94,500                 $90,600                 $3,900
     Allowance
 Unsupported Total
     One-Time
                              52,500                                         52,500
  Augmentation of
 $350 per employee
  Unallowable Total
Retroactive Uniform          141,100                                        141,100
     Allowance
   Total Uniform
                           $288,100                 $90,600                $197,500
    Allowance
Source: OIG analysis of St. Charles County Sheriff’s Department records

      The payment of a uniform allowance is a common practice for law
enforcement agencies. To determine if the uniform allowance provided by
the Sheriff’s Department was similar to that provided by other agencies, we
contacted six Midwestern counties of similar size to determine the amount
given for uniform allowance. We found that the counties we contacted
provided uniform allowances ranging from no allowance to $1,500 annually.
The counties' uniform allowance policies varied as well. Some counties
provided their officers the money directly and did not require receipts; other
counties had their officers submit receipts for reimbursement of uniform
expenses. Only one county in our sample did not provide any uniform
allowance.

     We contacted AFMLS officials to discuss the uniform allowance issue.
During discussions, AFMLS officials expressed concern over the practice of



                                           -7­
providing money directly to officers without requiring receipts for amounts
expended. They opined that a standard yearly uniform allowance expense
was permissible as long as the County received receipts for the items
purchased. AFMLS officials further stated they believed the one-time
$350 per employee augmentation would be permissible as long as the
employees provided receipts for uniform-related purchases using the
additional funds. However, AFMLS officials said that they believed the
$100 a year retroactive pay per employee totaling $141,000 was an
impermissible use of equitable sharing funds.

      Overall, in FY 2010 the Sheriff’s Department used $3,900 in equitable
sharing funds to help pay its normal yearly uniform allowance, $52,500 in
equitable sharing funds to augment each of its law enforcement employees’
uniform allowances by $350, and $141,100 in equitable sharing funds to
provide a retroactive uniform allowance to these employees. Based on our
analysis and discussion with AFMLS officials, we believe the County needs to
remedy a total of $56,400 in unsupported costs and $141,000 in unallowable
costs related to its FY 2010 uniform allowance.

Supplanting

      Pursuant to the Equitable Sharing Guide, equitable sharing revenues
must be used to increase or supplement the resources of the receiving state
or local law enforcement agency. Equitably shared funds shall not be used
to replace or supplant the resources of the recipient. To test whether
equitable sharing funds were used to supplement rather than supplant local
funding, we interviewed local officials and reviewed the agency’s local
budgets for FYs 2008, 2009, 2010, and 2011.

      Based on the results of our review, we did not find any indication that
St. Charles County was using equitable sharing funds to supplant local
funding. Local funding for the St. Charles County Sheriff's Department
increased and decreased along with County expenses during this period.

Views of Responsible Officials

      We discussed the results of our review with St. Charles County
Sheriff’s Department officials throughout the audit and at a formal exit
conference. Their input on specific issues has been included in the
appropriate sections of the report.




                                     -8­
Recommendations

We recommend that the Assistant Attorney General, Criminal Division:

1.	   Direct the St. Charles County Sheriff’s Department to file a corrected
      Equitable Sharing Agreement and Certification Report for FY 2010 that
      reflects the correct interest income, overtime expense, and uniform
      allowance.

2.	   Ensure that the St. Charles County Sheriff’s Department accurately
      records and reports interest income.

3.	   Require that the St. Charles County Sheriff’s Department properly
      maintains and reconciles the DAG-71 log.

4.	   Require the St. Charles County Sheriff's Department to remedy the
      $56,400 in unsupported costs related to uniform allowance expenses.

5.	   Require the St. Charles County Sheriff’s Department to remedy the
      $141,000 in unallowable costs related to retroactive uniform allowance
      payments.




                                    -9­
                                                                 APPENDIX I



           OBJECTIVES, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      The objectives of the audit were to assess whether equitably shared
cash and property received by the requesting agency were accounted for
properly and used for allowable purposes as defined by the applicable
regulations and guidelines. We tested compliance with the conditions of the
DOJ equitable sharing program. We reviewed laws, regulations, and
guidelines governing the accounting for and use of DOJ equitable sharing
receipts, including:

      •	 Guide to Equitable Sharing for State and Local Law Enforcement
         Agencies, dated April 2009;

      •	 OMB Circular A-133, Audits of State, Local Governments, and Non-
         Profit Organizations, revised June 2003.

      Unless otherwise stated in our report, the criteria we audit against are
contained in these documents.

Scope and Methodology

       Our audit concentrated on, but was not limited to, equitable sharing
receipts received by the St. Charles County Sheriff’s Department from
January 1, 2010, through December 31, 2010. We performed audit work
mainly at the St. Charles County Sheriff’s Department office located in
O'Fallon, Missouri. We interviewed St. Charles County Sheriff’s Department
officials and examined records of federal asset forfeiture revenues and
expenditures of DOJ equitable sharing funds by the St. Charles County
Sheriff’s Department.

      During FY 2010, there were 71 receipts totaling $1,671,647, and we
tested all of them. During FY 2010, there were disbursements totaling
$1,661,241. We selected 17 disbursements, totaling $1,116,063, for
testing. A judgmental sampling design was applied to obtain broad exposure
to numerous facets of the disbursements reviewed, such as dollar amounts



                                    - 10 ­
and cost categories. This non-statistical sample design does not allow
projection of the test results to all disbursements.

      We relied on computer-generated data contained in the DOJ
Consolidated Asset Tracking System (CATS) for determining equitably
shared revenues and property awarded to the St. Charles County Sheriff’s
Department during the audit period. We did not establish the reliability of
the data contained in the CATS system as a whole. However, when the data
used is viewed in context with other available evidence, we believe the
opinions, conclusions, and recommendations included in this report are valid.

      In planning and performing our audit, we considered internal controls
established and used by the St. Charles County Sheriff’s Department and the
St. Charles County government over DOJ equitable sharing receipts to
accomplish our audit objectives. We did not assess the reliability of the
St. Charles County government’s financial management system or internal
controls of that system or otherwise assess internal controls and compliance
with laws and regulations for the St. Charles County government as a whole.

       Our audit included an evaluation of the FY 2010 St. Charles County
Single Audit. The Single Audit Report was prepared under the provisions of
Office of Management and Budget Circular A-133. We reviewed the
independent auditor’s assessment, which disclosed no control weaknesses or
significant noncompliance issues related specifically to the St. Charles
County Sheriff’s Department.

      In addition to the Single Audit, we also examined the audits conducted
by the St. Charles County Auditor, who is responsible for conducting random
audits of all departments within the County and reports directly to the
County Council. The St. Charles County Auditor conducted three audits of
specific units within the Sheriff's department from 2009 to 2011. We
determined that none of the findings directly affected the Equitable Sharing
Program.




                                   - 11 ­
                                                                         APPENDIX II




            SCHEDULE OF DOLLAR-RELATED FINDINGS



QUESTIONED COSTS                                                    AMOUNT PAGE



Unallowable Retroactive Uniform Allowance                           $141,100         7


Unsupported Uniform Allowance Augmentation                             52,500        7


Unsupported Normal Uniform Allowance                                     3,900       7


Total Questioned Costs                                             $197,500


TOTAL DOLLAR-RELATED FINDINGS                                      $197,500




____________________
Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual
requirements, or are not supported by adequate documentation at the time of the audit, or
are unnecessary or unreasonable. Questioned costs may be remedied by offset, waiver,
recovery of funds, or the provision of supporting documentation.




                                         - 12 ­
                                                                               APPENDIX III



                            AUDITEE RESPONSE




AII//r}//I)' II) Serve                                                           SII uiff
 A 0111]' 10 Proleel                                                           Thomlls Nee,




                         ST. CHARLES COUNTY SHERIFF'S DEPARTMENT
                                 101 SHERIFF DIERKER COURT
                                  OFALLON, M I SSOURI 63366
                                  636-949-0809 - 800-822-80 I 7

March 15, 201 2

Caro! S. Taraszka
Regional Audit Manager
U. S. Department of Justice
Office of the Inspector General
Chicago Regional Audit Office
500 W. Madison St., Ste. 1121
Chicago, llIinois 60661

Dear Ms. Taraszka:

In reference to the report on the Audit of the St. Charles County Sheriff's Department
Equitable Sharing Program Activities I offer the following response.

The St. Charles County Sheriff's Department has been a participant in the Equitable
Sharing Program for more than 20 years. For many years we derived limited funds from
the program until our highway interdiction team was formed in 2004. Also we have had
Deputies assigned to the DEA Task Force in St. Louis since 1997 which makes us eligible
for asset sharing on DEA cases.

We have been diligent in keeping detailed and accurate records of receipts and
expenditures in what we refer to as ou r Drug Enforcement Account. I have personally
been responsible for these expenditures for the 7 years I have been the Sheriff and for 7
years prior to this as the Administrative Services Commander. Although there are several
entities of County Government directly involved in receiving and dispersing these funds I
am well aware the accountability falls on the Office of the Sheriff. Although we strive to
comply with the Guid e to Equitable Sharing for State and Local Law Enforcement
Agencies, the recent audit indicates deficient areas. J will provide an explanation for each
noted area to the best of my ab ility . I want to make one point adamantly clear. At no time




                                       - 13 ­
during our participation in this program have we ever submitted any information or
reports intended to deceive the Department of Justice or falsely report any expenditure.
This program has provided equipment, training and services which would not have been
possible without it. We are well aware of the consequences for failure to comply with the
guidelines.


       A. Maintaining DAG-71 log

          The Office of the County Counselor maintains the Di\G-71 forms as legal
          documents after the Counselor affixes her signature to the form. r was not
          aware her office had not been informed of the requirements set forth in the
          Guidelines page 26, section IX A. 4. This matter was discussed with the
          Counselor during our audit and required procedures were initiated
          immediately. We are now in compliance with this deficiency.

       B. CalcuJatingIRcporting Interest on Shared Funds.

          St. Charles County implemented new financial software in 2009. When
          finalizing the 2010 Annual Certification report, we decided to reconcile the
          report to the new Munis accounting software so both reports reflected identical
          information. The difference in the two reports was $23,021.71. After ensuring
          that the revenues and expenses were reported correctly for 2010, we believed
          the difference was due to prior year's interest that had not been reported.
          (Seizure revenues are tracked and checked by DOJ <1nd expenses are detailed
          out so we didn't think it was either of these two.) The issue is the annual
          certification report due before all prior year revenue and cxpendihHcs arc
          finalized. Our assumption was that some interest was reported to a prior year
          after the certification report was processed and the interest was not picked up
          the following year.

          To insure the proper balance for the certification, each year I w ill review all the
          numbers in a meeting with finance as late in the month of February as possible.
          I request AFMLS allow us to enter a onetime interest adjustment of $23,021.71 to
          be recorded in 2010 receipts. Also revised interest of $40,102.22 will be reported
          on the 2011 certification based on the same reversing entries as explained above.

       C. Uniform Al10wance

          The Use of asset forfeiture funds for uniform allowance was not the original
          intent for these que~tionf..>d funds. When the Countywide budget for FY 2010
          was being prepared in late 2009, we engaged in discussions relevant to the


                                                                                          2




                                       - 14 ­
    Sheriffs Department budget. As a part of that budget process I designated
    approximately $197,000 from the department asset fo rfeitu re fund for Sheriff's
    Department overtime pursuant to Equitable Sharing Guide page 19, section 2. a.
    (2). This was the entry on our Equitable Sharing Agreement and Certification
    report for FY 2010 submitted in February 2011.

    When the County Pinance Department and others completed the 2010 budget
    they allocated these fu nds designated for Sheriff's Department overtime to the
    clothing allowance and retained overtime funding for the Sheriffs Dept. in the
    County General Fund. When the ESAG report was comp leted and submitted
    for my signature there was no reference to clothing allowance. Regardless of
    intent the fact remains these funds were entered in the County accounting
    records as clothing allowance which was brought to my attention during your
    recent audit. No related or similar transactions occurred prior to or since the
    2010 budget year.

    Uniform Purchases

    One pOint of discussion relevant to the uniform allowance was the lack of
    receipts from Deputies. Prior to 1988 our agency used a "line of credit" w ith a
    local vendor for uniforms and associated equipment. Each Deputy was allowed
    to make specific purchases up to the dollar limit and the vendor invoiced the
    County. Since 1988 Deputies have been issued $630.00 annually for uniform
    purchase and maintenance (cleaning). The County does not require receipts
    due to the bookkeeping nightmare associated with such practice. The clothing
    allowance is taxed and included in the February payroll annually.

    I apologize for any misappropriation of funds if that is your final determination.
    As previously stated, we work diligently to comply with an d properly interpret
    the provisions of the Guide to Equitable Sharing. Please contact me for any
    additional information you may require.




                                                                                  3



.




                                - 15 ­
                                                               APPENDIX IV



      OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND

        ACTIONS NECESSARY TO RESOLVE THE REPORT


      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the
St. Charles County Sheriff’s Department. We incorporated the St. Charles
County Sheriff’s Department’s response as Appendix III of this final report.
However, the audit recommendations are unresolved because the Criminal
Division declined to provide comments on the draft report. The following
provides the OIG analysis of the St. Charles County Sheriff’s Department’s
response and a summary of actions necessary to resolve each report
recommendation.

Recommendation Number

1.	    Unresolved. In response to our recommendation to file a corrected
       Equitable Sharing Agreement and Certification Report for FY 2010 that
       reflects the correct interest income, overtime expense, and uniform
       allowance, the St. Charles County Sheriff's Department explained that
       a miscommunication between the Sheriff’s Department and the County
       Finance Department had caused some expenditures to be misclassified
       on its FY 2010 Certification Report.

       This recommendation is unresolved because the Criminal Division did
       not respond to the draft report. This recommendation can be resolved
       once the OIG and the Criminal Division reach agreement on corrective
       action planned to address the recommendation.

2.	    Unresolved. The St. Charles County Sheriff’s Department concurred
       with our recommendation to ensure it accurately records and reports
       interest income. The St. Charles County Sheriff’s Department stated
       that in the future, the Sheriff will review the numbers as late in the
       month of February as possible to ensure accurate reporting.

       However, this recommendation is unresolved because the Criminal
       Division did not respond to the draft report. This recommendation can
       be resolved once the OIG and the Criminal Division reach agreement
       on corrective action planned to address the recommendation.

3.	    Unresolved. The St. Charles County Sheriff’s Department concurred
       with our recommendation to properly maintain and reconcile its
       DAG-71 log. The St. Charles County Sheriff’s Department stated that
       proper procedures have now been implemented to correct this
       deficiency.


                                    - 16 ­
      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action planned to address the recommendation.

4.	   Unresolved. The St. Charles County Sheriff’s Department did not
      concur with our recommendation to remedy the $56,400 in
      unsupported costs related to uniform allowance expenses. In its
      response, St. Charles County Sheriff’s Department stated that it does
      not require receipts from officers due to the “bookkeeping nightmare”
      that would ensue if receipts were required.

      This recommendation is unresolved because the Criminal Division did
      not respond to the draft report. This recommendation can be resolved
      once the OIG and the Criminal Division reach agreement on corrective
      action planned to address the recommendation.

5.	   Unresolved. In its response to the draft report, the St. Charles
      County Sheriff’s Department did not address our recommendation to
      remedy the $141,000 in unallowable costs related to retroactive
      uniform allowance payments.

      This recommendation is unresolved because the Criminal Division did
      not respond to the draft report. This recommendation can be resolved
      once the OIG and the Criminal Division reach agreement on corrective
      action planned to address the recommendation.




                                   - 17 ­
